TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Tax Exempt Determination System
                        Release 1 Delivered Only a Small
                      Portion of the Expected Benefits and
                     Significantly Exceeded Cost Estimates



                                      September 26, 2006

                              Reference Number: 2006-10-174




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 26, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Tax Exempt Determination System Release 1
                               Delivered Only a Small Portion of the Expected Benefits and
                               Significantly Exceeded Cost Estimates (Audit # 200610010)

 This report presents the results of our review to determine whether implementation of the Tax
 Exempt Determination System (TEDS) Release 1 improved the Tax Exempt and Government
 Entities (TE/GE) Division’s processing of Short Form Application for Determination for
 Employee Benefit Plan (Form 5307) and provided electronic Employee Plans (EP) determination
 information to other TE/GE Division programs.
 Implementation of TEDS Release 1 was expected to provide significant benefits in the receipt,
 handling, and processing of Forms 5307 to the EP function and other TE/GE Division programs
 that need access to Form 5307 information. The enhancements were supposed to assist TE/GE
 Division management with a large influx of determination applications received as a result of a
 remedial amendment period.1

 Impact on the Taxpayer
 TEDS Release 1 was designed to reduce the processing time for Form 5307 determination
 applications and improve service to customers. However, the automation of closing processes


 1
   Determination letters provide customers assurance that their employee plan or exempt organization is in
 compliance with applicable tax laws. A favorable determination letter may no longer apply if there is a change in a
 statute, regulation, or revenue ruling applicable to pension plans. When this occurs, the plan must be amended to
 comply with the new requirements. The Internal Revenue Service allows plan sponsors time, called the remedial
 amendment period, to incorporate tax law changes without a penalty or sanction. The remedial amendment period
 ended on January 31, 2004.
                           The Tax Exempt Determination System Release 1
                        Delivered Only a Small Portion of the Expected Benefits
                               and Significantly Exceeded Cost Estimates


for these applications and the automation of processes for issuing determination letters were not
operating as envisioned. As a result, the new System did not significantly improve the
processing of Forms 5307. This is important because the time to process all types of
determination applications increased from 208 calendar days to 324 calendar days between
Fiscal Years 2004 and 2005, the period of time in which the new System was operational.

Synopsis
The delivery of TEDS Release 1 on March 16, 2004, did not significantly improve the TE/GE
Division’s processing of Form 5307 determination applications or assist in providing electronic
EP determination information to other TE/GE Division programs, as originally envisioned.
Because TEDS Release 1 was implemented a couple of months after the remedial amendment
period and the EP function had already started to receive a large number of applications, the EP
function would not have realized the full benefits of the System even if it had worked effectively.
As a result, the delay in the delivery of the System severely limited the impact TEDS Release 1
had on the processing of Form 5307 determination applications. Also, while electronic
Form 5307 information was available to TEDS users, its impact was limited because the use of
electronic images had not been fully incorporated into TE/GE Division operating procedures.
In addition to the failure of TEDS Release 1 to deliver many of the projected benefits,
investments associated with the development of TEDS Release 1 were not appropriately tracked,
which prevented TE/GE Division senior management from receiving the information needed to
effectively evaluate their investment in the TEDS. TEDS Release 1 was developed from
December 20012 to March 2004. The TE/GE Division used a business case model for estimating
the costs and benefits to justify the need for the project and to provide a basis for estimating the
cost associated with the development of the TEDS. The actual cost to develop, implement, and
maintain TEDS Release 1 (through
February 17, 2006) was over $16.9 million, which
was approximately $2.3 million higher than that                  Delays in the delivery of TEDS
estimated in August 2003. However, the                        Release 1, as well as the System’s
August 7, 2003, TEDS Business Case was not                        failure to deliver many of the
appropriately updated to reflect the severely                projected benefits, severely limited
curtailed capabilities of the System, the 16 percent        its impact on the processing of Form
                                                               5307 determination applications.
increase in cost, and the 5-month delay in delivery of
the System. Thus, TE/GE Division management did
not use the Business Case to fully evaluate
investment decisions. This is especially critical because TEDS Release 2 is under development


2
 The start date of TEDS Release 1 was determined to be the date the Executive Steering Committee approved the
multiple release strategy for the TEDS.
                                                                                                                2
                        The Tax Exempt Determination System Release 1
                     Delivered Only a Small Portion of the Expected Benefits
                            and Significantly Exceeded Cost Estimates


by the TE/GE Division, where the Director, Exempt Organizations function, is responsible for
overseeing its implementation.

Recommendations
We recommended the Director, Business Systems Planning, ensure tasks needed to achieve the
system functionality for future releases of the TEDS are clearly established to provide greater
assurance that expected benefits will be realized. We recommended the Director, Exempt
Organizations, implement processes to ensure the TEDS Business Case is revised when changes
to the project’s scope occur, increases in the project’s target completion date are extended by
more than 10 percent, or project costs are increased by more than 10 percent, so the most current
information is available to make informed investment decisions; monitor the progress of the
System’s development; and evaluate whether business benefits are realized. We also
recommended the Director, Exempt Organizations, fully evaluate investment decisions by
adopting a business case model that includes processes for tracking actual costs of processing the
determination applications to compare with the estimated costs.

Response
TE/GE Division management agreed with the findings, recommendations, and measurable
benefits on tax administration included in the report. Specifically, TE/GE Division management
has taken corrective actions to ensure the criteria for automating case closure processes are as
complete as possible for the available data, to increase the flexibility of the criteria governing
automated case closure and automated letter generation systems in TEDS Release 2, and to
ensure processes are in place to identify all requirements. TE/GE Division management has
implemented corrective actions to ensure information needed to make investment decisions,
monitor the progress of the System’s development, and evaluate whether business benefits are
realized is provided to TE/GE Division managers responsible for making decisions regarding
TEDS Release 2 investments. Further, TE/GE Division management has taken action to ensure
actual costs are tracked and compared against estimated costs. Management’s complete response
to the draft report is included as Appendix V.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                 3
                               The Tax Exempt Determination System Release 1
                             Delivered Only a Small Portion of the Expected Benefits
                                   and Significantly Exceeded Cost Estimates




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Critical Portions of the Tax Exempt Determination System Release 1
          Did Not Operate As Expected, Which Prevented Expected Benefits
          From Being Realized ....................................................................................Page 4
          Costs and Benefits for Developing the Tax Exempt Determination
          System Release 1 Were Not Appropriately Tracked and Monitored ...........Page 9
                    Recommendation 1:........................................................Page 12

                    Recommendations 2 and 3: ..............................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measure ................................................................Page 19
          Appendix V – Management’s Response to the Draft Report.. .....................Page 20
          The Tax Exempt Determination System Release 1
        Delivered Only a Small Portion of the Expected Benefits
              and Significantly Exceeded Cost Estimates




                   Abbreviations

CAS             Customer Account Services
EDS             Employee Plans and Exempt Organizations Determination
                System
EP              Employee Plans
FY              Fiscal Year
IRS             Internal Revenue Service
TEDS            Tax Exempt Determination System
TE/GE           Tax Exempt and Government Entities
                           The Tax Exempt Determination System Release 1
                         Delivered Only a Small Portion of the Expected Benefits
                               and Significantly Exceeded Cost Estimates




                                            Background

The Tax Exempt and Government Entities (TE/GE) Division uses the Employee Plans and
Exempt Organizations Determination System (EDS) to process and control Employee Plans (EP)
and Exempt Organizations determination letter1 applications. For EP customers, the
determination letter process is a key interaction with the Internal Revenue Service (IRS) because
a favorable determination letter gives the employer or plan sponsor the assurance a pension plan
is qualified for favorable tax treatment, as long as the plan is operated under the terms on which
the determination letter was issued.
However, TE/GE Division management identified shortcomings with the EDS and the
determination letter process, which affected their ability to achieve their mission and strategic
performance goals. For example, TE/GE Division management determined their performance
was constrained by outdated technology that lacked the capacity to handle the required workload,
fulfill statutory IRS responsibilities under the Internal Revenue Code, and meet expectations of
the EP customers. These shortcomings included:
    •   Average time to work a case is too long.
    •   Cycle time2 to respond to simple inquiries and status changes is too long.
    •   Level of accuracy in determinations is unacceptably low.
    •   The EDS can not meet expected peak volume demand.
    •   Significant manual processes, paper handling, and tracking are inefficient.
    •   Nonautomation of case grading, classification,3 or assignment is inefficient.
    •   Postal costs are excessive because of an inefficient practice of mailing case files.
To address the shortcomings, the TE/GE Division redesigned its business processes in a Business
Concept of Operations4 document dated November 14, 2001. The concept included defining


1
  Determination letters provide customers assurance that their employee plan or exempt organization is in
compliance with applicable tax laws.
2
  Cycle time is the period from when an EP case is postmarked to the closing of the application and issuance of the
determination letter.
3
  The case grading system capability recommends the grade level of the employee assigned to work the case
(i.e., General Service 9, 11, 12, or 13). The classification system capability shows the type of case to be worked
(i.e., Automated, Merit, Non-Merit, and Washington Office).
4
  The Business Concept of Operations document provides the vision for how the TEDS will facilitate the processing
of determinations within the TE/GE Division.
                                                                                                           Page 1
                            The Tax Exempt Determination System Release 1
                          Delivered Only a Small Portion of the Expected Benefits
                                and Significantly Exceeded Cost Estimates



new business processes to be used for processing EP and Exempt Organizations determination
letter applications. TE/GE Division management decided to invest in building a new system to
replace the EDS and enable the IRS to meet current and future determination letter processing
needs of both EP and Exempt Organizations customers.
In December 2001, the TE/GE Division Investment Executive Steering Committee5 approved a
multiple release strategy for the new system, the Tax Exempt Determination System (TEDS).
Overall, the TEDS was expected to reduce cycle time, processing time, and processing costs,
while implementing process improvements that were to enhance the quality of determinations
and the quality of service delivered to customers. TEDS Release 1 was to provide the technical
infrastructure for all future releases of the TEDS and would redesign the process for one of the
simpler EP determination request forms, Short Form Application for Determination for
Employee Benefit Plan (Form 5307). TEDS Release 1 would process the Forms 5307 from
receipt by the IRS to issuance of a determination letter or acknowledgment notice. Specifically,
implementation of TEDS Release 1 was expected to provide the following system enhancements:
    •    Control the receipt and handling of Forms 5307.
    •    Convert hard-copy Forms 5307 and other submitted documents to electronic versions that
         can be accessed in the TEDS to perform determination processing.
    •    Automate case grading and classification of Forms 5307 for case assignment.
    •    Automate case closure for Forms 5307 through the use of business rules.6
    •    Automate the issuance of determination letters for Forms 5307.
    •    Generate management information reports for monitoring the processing of determination
         applications.
Due to several tax law changes, the TE/GE Division anticipated receiving a significant increase
in the number of EP determination applications associated with a remedial amendment period.7
TE/GE Division management had set the goal of having TEDS Release 1 operational in Fiscal
Year (FY) 2004 to handle the additional EP determination applications.



5
  A committee with the authority to approve a project request and determine whether to continue the project. The
committee includes executive-level members and advisors. Executive-level members, who have voting privileges,
are from each part of the organization that has a stake in the success of their initiative. Advisors are from an
organization such as Business Systems Planning.
6
  The business rules are requirements that govern which cases meet the favorable determination criteria.
7
  A favorable determination letter may no longer apply if there is a change in a statute, regulation, or revenue ruling
applicable to pension plans. When this occurs, the plan must be amended to comply with the new requirements.
The IRS allows plan sponsors time, called the remedial amendment period, to incorporate tax law changes without a
penalty or sanction. The remedial amendment period ended on January 31, 2004.
                                                                                                               Page 2
                           The Tax Exempt Determination System Release 1
                         Delivered Only a Small Portion of the Expected Benefits
                               and Significantly Exceeded Cost Estimates



A prior Treasury Inspector General for Tax Administration audit8 found that Business Systems
Planning program management’s planned use of a modified Enterprise Life Cycle and added
project management techniques9 for the development of the TEDS complied with IRS guidelines
for the initial stages of systems development. However, TEDS project management did not
implement these techniques as planned. This resulted in the following inefficiencies:
    •   Requirements gathering led to delays in project development.
    •   Performance monitoring did not ensure project objectives were completed on schedule or
        within budget.
    •   Risk management10 did not identify potential problems that could affect completion of
        TEDS development.
In the prior audit, we recommended TEDS project management identify and explain cost,
benefit, schedule, and contractor performance variances in the next Business Case11 update. The
Business Case update should include a report of the actual business benefits realized as
compared to projected benefits. We also recommended TEDS project management fully
implement the planned risk management process. TE/GE Division management agreed with the
recommendations and implemented actions to address the problems identified by the audit.
This review was performed at the IRS National Headquarters Business Systems Planning and
EP Program offices in Washington, D.C.; the Cincinnati Submission Processing Site12 in
Covington, Kentucky; the EP Rulings and Agreements Determinations program, the EP
Determinations Quality Assurance program, and the TE/GE Division Customer Account
Services (CAS) call site in Cincinnati, Ohio; and the EP Examinations function in
Baltimore, Maryland. The audit work was conducted during the period January through
April 2006 in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




8
  Project Management Techniques Need to Be Followed to Effectively Develop the Tax Exempt Determination
System (Reference Number 2003-10-103, dated May 2003).
9
  Project management techniques are used to ensure the development of computer systems is efficient and effective.
10
   Risk management is a continual process that seeks to proactively manage uncertainties to reduce or avoid adverse
project impacts.
11
   A business case serves as the document that summarizes numerous technical and business work products,
analyses, and studies that provide the basis for making investment funding decisions and for monitoring and
evaluating investment performance.
12
   Submission Processing sites process paper and electronic submissions for analysis and posting to taxpayer
accounts.
                                                                                                           Page 3
                       The Tax Exempt Determination System Release 1
                     Delivered Only a Small Portion of the Expected Benefits
                           and Significantly Exceeded Cost Estimates




                                 Results of Review

Critical Portions of the Tax Exempt Determination System Release 1
Did Not Operate As Expected, Which Prevented Expected Benefits
From Being Realized
The delivery of TEDS Release 1 on March 16, 2004, did not significantly improve the TE/GE
Division’s processing of Form 5307 determination applications or assist in providing electronic
EP determination information to other TE/GE Division programs, as originally envisioned.
Because TEDS Release 1 was implemented a couple of months after the remedial amendment
period and the EP function had already started to receive a large number of applications, the EP
function would not have realized the full benefits of the system even if it had worked effectively.
As a result, the delay in the delivery of the System severely limited the impact TEDS Release 1
had on the processing of Form 5307 determination applications. In addition, while electronic
Form 5307 information was available to TEDS users, its impact was limited because the use of
electronic images had not been fully incorporated into TE/GE Division operating procedures.

Enhancements expected from TEDS Release 1 did not significantly improve the
processing of EP Form 5307 determination applications
For each of the planned system capabilities for TEDS Release 1, we determined whether the
System was operating as intended as well as the reasons why any system capabilities were not
operating. The TE/GE Division successfully ensured TEDS Release 1 system capabilities for
controlling and converting hard-copy Form 5307 determination applications into electronic case
files were implemented. It also successfully automated some of the case assignment processes
by systemically grading and classifying Form 5307 determination applications. While no data
existed at the time of our audit to assess the impact of these enhancements, the implementation
of these additional capabilities improved Form 5307 processing by reducing the number of
human resources needed to perform these functions.
However, key portions of the TEDS Release 1 functionality did not deliver the expected benefits
projected in the August 7, 2003, TEDS Business Case, which greatly limited the impact the
System had on the processing of determination applications. As described in more detail below,
the automation of closing processes for Form 5307 determination applications that met selected
criteria as well as the automation of processes for issuing determination letters were not
operating as envisioned. In addition, management information reports that were to be used to
monitor the determination applications after IRS receipt and initial processing were not operating
as expected and were not being used.

                                                                                            Page 4
                           The Tax Exempt Determination System Release 1
                         Delivered Only a Small Portion of the Expected Benefits
                               and Significantly Exceeded Cost Estimates



The TE/GE Division had planned on systemically closing a portion of Form 5307 determination
applications by programming selected processing procedures or business rules into the case
evaluation processes. Determination applications that met specific criteria were supposed to be
automatically closed with a determination letter automatically issued to the customer with no
human intervention. However, during pilot testing from July 28, 2003, through March 16, 2004,
the EP function determined many of the cases proposed for automatic closure were at a
significant risk of being inappropriately closed because sufficient evidence was not available to
ensure the plans met all of the criteria for tax-exempt status.
The automated case closure feature was designed to expedite the processing for determination
applications and to eliminate the need for EP personnel to prepare and send determination letters
to customers. Combined, these enhancements were expected to yield monetary benefits resulting
from “productivity increases that translate into reinvestment opportunities for the IRS.” For
example, the TEDS Business Case from August 2003 showed the TE/GE Division had estimated
achieving over $788,000 in monetary benefits for FYs 2004 and 2005 resulting from reduced
labor costs13 for processing determination applications.
Several issues prevented the EP function from implementing the automated closure feature:
     •   The criteria (or business rules) for automated closure did not account for instances where
         Forms 5307 included additional issues or amendments, which is a common practice even
         for pre-approved plans.
     •   The criteria that govern the automated case closure system capability are custom coded
         and do not provide the ability for the user to update or change the criteria without the
         assistance of a programmer for common differences such as legislative changes.
     •   The pressure of a tight time constraint for TE/GE Division project management to
         implement the TEDS Release 1 prior to the influx of Forms 5307 due to the remedial
         amendment period.
     •   The research process during the development of the TEDS was not effective to identify
         all of the requirements that were needed to program the TEDS.
At the time of our review, Form 5307 determination applications that originally met the criteria
for automated closure were being classified as proposed auto-closures. The proposed
auto-closures required a review by revenue agents to determine whether additional actions were
needed to approve the application and issue a favorable determination letter. While there is a
benefit to using the proposed auto-closure feature, the estimated labor savings of over $788,000



13
  The estimated labor processing savings are presented in constant dollars. Constant dollars are reported in terms of
the value they had on a previous date (e.g., the dividend of $5.00 per share paid in 1986 was worth only $2.50 in
constant dollars of 1976, when the stock was purchased).
                                                                                                             Page 5
                                      The Tax Exempt Determination System Release 1
                                    Delivered Only a Small Portion of the Expected Benefits
                                          and Significantly Exceeded Cost Estimates



did not materialize because the automated case closure and automated letter generation features
were not operating as envisioned.
EP function management and TEDS project management advised us the automated case closure
feature described in the March 15, 2002, TEDS Business Concept of Operations will not be
available in future releases of TEDS applications unless significant changes are made to either
the criteria for applying business rules or the Form 5307. The only EP Form that is expected to
be closed automatically is the Notice of Merger, Consolidation or Transfer of Plan Liabilities
(Form 5310-A), which is a merger notice that is not required to be reviewed because no
determination or acknowledgement letter is required.
TEDS Release 1 was also intended to yield nonmonetary benefits, including the following:
   •   Reduced cycle time for processing EP determination applications.
   •   Improved customer satisfaction as measured by the customer satisfaction survey score.
   •   Improved quality of determination letters.
However, as shown in Figure 1, cycle time for processing applications increased despite the
piloting and implementing of the TEDS in FY 2004.
         Figure 1: Increased Cycle Time for EP Determination Applications

                              400
                                                                                     324

                              300
              Calendar Days




                                                                      208
                              200

                                                     176
                                         149
                              100



                               0
                                        FY 02        FY 03            FY 04          FY 05

                                                   Determination Letter Cycle Time

           Source: November 4, 2004, and November 3, 2005, TE/GE Business Performance
           Reviews.

The TE/GE Business Performance Reviews showed the TE/GE Division attributed the increased
cycle time to a higher than anticipated volume of determination applications received from
adopters of pre-approved plans and the extension of time in which plan sponsors had to submit
their determination applications. In FY 2004, the EP function estimated approximately
42,000 determination applications would be received; the actual volume was 70,610 receipts.

                                                                                             Page 6
                                The Tax Exempt Determination System Release 1
                              Delivered Only a Small Portion of the Expected Benefits
                                    and Significantly Exceeded Cost Estimates



However, the increases in cycle time could have been significantly mitigated with successful
implementation of the automated case closure feature described by the August 7, 2003, TEDS
Business Case. This Business Case showed “a significant variable impacting the benefits
associated with TEDS Release 1 is the percentage of cases that will be closed automatically with
TEDS.” The TE/GE Division expected approximately 32 percent of the Forms 5307 would be
closed automatically without human intervention. Because the automated case closure feature
was not operating as envisioned by the Business Case, the Forms 5307 that would have been
auto-closed were identified for proposed auto-closures, which required a review by revenue
agents when the System was placed into production in FY 2004. This contributed to increasing
cycle time from 176 calendar days to 324 calendar days between FYs 2003 and 2005.
During this same time period, TEDS Release 1 did not contribute towards the performance
measures for improving customer satisfaction and improving the quality of determination letters.
Figure 2 presents the decline in these two performance measures.
           Figure 2: Decreased Customer Satisfaction and Letter Quality

                         90
                                   84
                                                   80
                         80
                                                                  76                76
            Percentage




                         70
                                   72
                                                   69
                                                                 67
                         60
                                                                                   61


                         50
                                 FY 02           FY 03         FY 04             FY 05

                                  Customer Satisfaction   Determination Letter Quality

           Source: November 4, 2004, and November 3, 2005, TE/GE Business Performance Reviews.

The TE/GE Business Performance Reviews attributed a decrease in the level of satisfied
customers from 69 percent in FY 2003 to 61 percent in FY 2005 primarily to the large increase
in workload resulting from the determination applications received from adopters of
pre-approved plans and the corresponding delay in issuing determination letters. During this
same period, the quality of determination letters decreased from 80 percent to 76 percent. The
TE/GE Business Performance Reviews for the EP function attribute the decrease in quality in
FYs 2004 and 2005 to use of a more rigid definition of the timeliness standards, which no longer
allowed for reviewer judgment or mitigating circumstances. This was coupled with a large
build-up of inventory for determination applications.



                                                                                                 Page 7
                           The Tax Exempt Determination System Release 1
                         Delivered Only a Small Portion of the Expected Benefits
                               and Significantly Exceeded Cost Estimates



The automated letter generation system capability did not deliver the expected benefits described
in the August 7, 2003, TEDS Business Case because TEDS Release 1 lacked the functionality to:
     •   Create correspondence templates.
     •   Provide authorized users the ability to change the letter template as well as the effective
         dates associated with each change.
TEDS Release 1 also did not include the capability to monitor the processing of the Form 5307
determination applications from receipt by the IRS to issuance of a determination letter or
acknowledgement notice. TE/GE Division management advised us the TEDS report feature for
the initial receipt and processing of the Form 5307 determination applications was being used.
However, the report feature was not being used to control the inventory of determination
applications when they are ready for assignment to a revenue agent. TE/GE Division
management advised us the report feature used to control the inventory of determination
applications was not critical to TEDS Release 1 because the inventory was controlled on the
EDS. As a result, the TE/GE Division has been relying exclusively on the EDS for inventory
control reports and uses two “Balancing Reports”14 to reconcile the two Systems. TE/GE
Division management determined the combination of the Balancing Reports and the EDS
inventory reports was sufficient to control inventory and that incurring additional costs to create
the TEDS Release 1 reports would not be practical because the EDS was the inventory system
for processing and controlling the Form 5307 determination applications. However, the EDS
was the System TE/GE Division management stated was inefficient in the March 15, 2002,
TEDS Business Concept of Operations.
Project management is a carefully planned and organized effort to accomplish a specific
one-time effort (e.g., implementation of a new computer system). Project management includes
defining project goals and objectives, specifying tasks on how the goals will be achieved and
what resources are needed, and associating budgets and timeliness for completion.
Because the effort to implement TEDS Release 1 was not sufficiently planned and monitored to
ensure tasks would achieve project goals, there was less assurance that system capabilities would
operate as planned, expected benefits would be delivered, and the System would be implemented
within estimated project cost.




14
  Balancing Reports are inventory reports, one report each from the two systems, used to reconcile the inventory of
determination letters between the EDS and the TEDS.
                                                                                                            Page 8
                       The Tax Exempt Determination System Release 1
                     Delivered Only a Small Portion of the Expected Benefits
                           and Significantly Exceeded Cost Estimates



TEDS Release 1 did not benefit other TE/GE Division operations not directly
associated with the processing of Form 5307 determination applications
System documentation showed several TE/GE Division operations not associated with the
processing of EP determination applications would also benefit from the implementation of
TEDS Release 1. The August 7, 2003, TEDS Business Case identified the TE/GE CAS function
as one operation that would be using TEDS functionality, and the March 15, 2002, TEDS
Business Concept of Operations identified the EP Examination and EP Quality Assurance
functions as other operations that would be using TEDS information.
The functionality of TEDS Release 1 was intended to provide the TE/GE CAS call site with
online access to EP Form 5307 determination applications and the ability to reproduce copies of
closing letters. However, because the EP Forms 5307 are actually processed on the EDS,
TEDS Release 1 did not show whether the EP determination application had actually completed
processing. As a result, the TE/GE CAS function used the EDS information, not the TEDS, to
answer customer inquiries regarding the status of their determination applications.
While the March 15, 2002, TEDS Business Concept of Operations showed the EP Examination
function would be using information from TEDS Release 1, EP Examination management stated
TEDS Release 1 would not affect its operation because that functionality was not implemented.
Future releases of the TEDS are expected to provide EP revenue agents with advance copies of
determination letters and with the applications documents associated with the plans prior to
initiating an audit of the employee plan.
The EP Quality Assurance function expected a reduction in the error rates on determination
letters and timelier issuance of determination letters with the implementation of TEDS Release 1.
However, these benefits were never realized because major portions of the system functionality
were not delivered. EP employees have the capability to automatically select cases for review,
but they select the cases from the EDS because this is “their system of record.” Although no
benefits were realized with TEDS Release 1 implementation, EP Quality Assurance function
management stated the nondelivered system functionality did not affect their ability to meet
program goals and provide quality service.

Costs and Benefits for Developing the Tax Exempt Determination
System Release 1 Were Not Appropriately Tracked and Monitored
Investments associated with the development of TEDS Release 1 were not appropriately tracked,
which prevented TE/GE Division senior management from receiving the information needed to
effectively evaluate their investment in the TEDS. The TE/GE Division used a business case
model for estimating the cost and benefits. The business case model was intended to provide a
basis for making investment funding decisions and to:
   •   Justify the need for the project to investment decision makers.

                                                                                          Page 9
                           The Tax Exempt Determination System Release 1
                         Delivered Only a Small Portion of the Expected Benefits
                               and Significantly Exceeded Cost Estimates



     •   Provide justification for prioritizing, selecting, and funding the investment throughout the
         life cycle for the project.
     •   Establish baseline costs, schedule, and performance goals to control and evaluate the
         investment of resources into the project.
However, TE/GE Division management did not appropriately update the August 7, 2003, TEDS
Business Case or demonstrate the business case model was actually used to evaluate investment
decisions because there was no process in place to compare the actual cost of processing
determination applications with the cost estimated in the Business Case.
Over the last decade, Congress has enacted a variety of legislation to change how the Federal
Government conducts its business. This legislation seeks to improve mission performance
through more effective strategic, financial, and acquisition management. One law enacted was
the Clinger-Cohen Act of 1996,15 which requires agencies of the Federal Government to focus on
the results that are achieved when investing in Information Technology projects. Agencies are
required to evaluate technology investment decisions in a true “business context” and to analyze
the investments to determine their return on investment. Even after the system has been
deployed, agencies should be comparing the actual business benefits with the projected business
benefits for each Information Technology investment. To meet this requirement, agencies must
implement processes and maintain information needed to assess whether Information
Technology projects are completed at acceptable costs, within reasonable and expected time
periods, and are contributing to tangible, observable improvements in mission performance. The
Clinger-Cohen Act of 1996 also requires that business benefits from each Information
Technology investment be reported to the Office of Management and Budget and Congress
annually. The business case model assists in satisfying this requirement.
IRS policy generally requires business cases to be updated at specific points of system
development,16 although revisions to a business case can occur at any time. Conditions that
require a revision to the business case include changing the scope of the project, increasing the
cost of the project by more than 10 percent, or extending the targeted delivery dates by more than
10 percent of the previous estimate. The revisions are necessary to ensure the most accurate
information is available for making investment decisions, monitoring the progress of the
system’s development, and evaluating whether business benefits are actually realized.
The original baseline Business Case for the total TEDS project was prepared in June 2001 and
updated in August 2003 to include only TEDS Release 1 costs and benefits. However, the

15
   Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996) (Information Technology Management
Reform Act of 1996), Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app.,
10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
16
   IRS policy generally requires a business case to be updated after successful completion of integration, testing,
acceptance, and piloting (testing the system in an actual business environment).
                                                                                                           Page 10
                       The Tax Exempt Determination System Release 1
                     Delivered Only a Small Portion of the Expected Benefits
                           and Significantly Exceeded Cost Estimates



Business Case for TEDS Release 1 has not been updated since August 2003, even though all
three conditions that require an update to the Business Case have been met. For example, during
the pilot testing of TEDS Release 1, problems surfaced with the quality of cases meeting the
rules for closing cases using automated business rules processes and with the quality of
determination letters that were to be issued using automated processes of TEDS Release 1. This
resulted in a significant change to the scope of the TEDS Release 1 project because processes
that were designed to close some EP Forms 5307 without human intervention were changed to a
process still requiring a revenue agent’s review. Problems with the automated letter generation
portion of TEDS Release 1 software could not be used, which resulted in a change to the scope
and required additional resources to review determination letters for cases meeting selected
criteria.
Since issuance of the August 7, 2003, TEDS Business Case, the cost to deliver TEDS Release 1
had also exceeded the estimated project cost by over 10 percent. Total expected project cost
through FY 2006 for TEDS Release 1 was estimated at approximately $14.7 million in the
Business Case updated in August 2003. However, the actual cost to implement and maintain
TEDS Release 1 was about $17 million as of February 17, 2006, which exceeded the estimate by
approximately $2.3 million or 16 percent.
The TE/GE Division also did not meet the delivery dates targeted in the updated Business Case,
which should have triggered another update to reevaluate the System’s performance. The
August 2003 Business Case showed that TEDS Release 1 was scheduled to be deployed in
October 2003, but it was not actually deployed until March 2004.
In addition to not updating the August 7, 2003, TEDS Business Case, TE/GE Division
management did not have a process in place to appropriately evaluate investment decisions
associated with the development of TEDS Release 1 because the actual cost of processing
determination applications was not compared with the cost estimated in the Business Case. The
August 7, 2003, TEDS Business Case presented the annual estimated cost of processing
determination applications using TEDS Release 1 functionality; however, no process was in
place to assess whether the estimates were accurate because the actual cost was not tracked.
TE/GE Division management advised us the Business Case was not updated because they
considered TEDS Release 1 to be essentially complete at the time the System was placed into a
production mode. However, we believe another update to the Business Case along with an
analysis comparing the actual cost of processing determination applications with the estimate in
the Business Case would have provided TE/GE Division management with the information
necessary to appropriately evaluate investment decisions as required by the Clinger-Cohen Act
of 1996.
The TE/GE Division started planning for TEDS Release 2 in September 2003, before
TE/GE Division management was fully aware of the limitations of the System. As part of this
planning process, TE/GE Division management prepared a June 7, 2004, TEDS Business Case

                                                                                         Page 11
                       The Tax Exempt Determination System Release 1
                     Delivered Only a Small Portion of the Expected Benefits
                           and Significantly Exceeded Cost Estimates



that analyzed the benefits and costs associated with TEDS Release 2. The system functionality
to be added with the implementation of this Release includes the ability to image additional
documents (i.e., other than those received as part of a new Form 5307 application package) and
either add those images to an existing TEDS case file or create a new electronic file for images
not related to an existing TEDS case. TEDS Release 2 will also provide the ability to scan and
image Exempt Organizations closed case files. We did not perform an assessment of the
processes used to plan or develop system functionality for Release 2 in this audit. However,
based on the failure of TEDS Release 1 to deliver many of the necessary projected benefits,
TE/GE Division management should closely review the expected benefits and costs associated
with TEDS Release 2 and update the June 7, 2004, TEDS Business Case as appropriate.

Recommendations
Recommendation 1: The Director, Business Systems Planning, should ensure tasks needed
to achieve the system functionality for future releases of the TEDS are clearly established to
provide greater assurance that expected benefits will be realized. This includes ensuring:
   •   Criteria for automating case closure processes are complete, to account for additional
       issues or amendments within the determination applications.
   •   Criteria that govern the automated case closure and automated letter generation system
       capabilities are flexible, to allow users to easily update or change the criteria for common
       issues such as legislative changes.
   •   Adequate time is provided to implement TEDS Release 2.
   •   Processes are effective to identify all TEDS Release 2 system requirements.
       Management’s Response: The Commissioner, TE/GE Division, reported that each
       element of Recommendation 1 has been completed. Specifically:
       1) During development of the requirements for TEDS Release 2, the criteria for
          automating case closure processes were thoroughly reviewed by the TEDS user group
          and were determined to be as complete as possible for the available data from the
          form.
       2) Criteria that govern the automated case closure and automated letter generation
          systems in TEDS Release 2 are significantly more flexible than those in Release 1.
          The custom-coded business rules engine used in Release 1 has been replaced by a
          commercial off-the-shelf business rules engine that enables authorized users to
          modify specific criteria for auto-closure. This commercial off-the-shelf product also
          enables a programmer to easily create new business rules when needed. The
          custom-coded letter generation system in TEDS Release 1 has been replaced in TEDS


                                                                                           Page 12
                       The Tax Exempt Determination System Release 1
                     Delivered Only a Small Portion of the Expected Benefits
                           and Significantly Exceeded Cost Estimates



           Release 2 by another commercial off-the-shelf-based system that enables authorized
           users to easily add or modify standard letter paragraphs without reprogramming.
       3) TEDS Release 2 has been divided into distinct phases, and each phase is allocated an
          amount of time in the project schedule for development, testing, and pilot. The
          deployment will also be accomplished in a phased approach starting in April 2007
          and concluding in October 2007. The project schedule contains time for each phase
          of the life cycle and is managed by weekly scheduled reviews conducted by the
          integrated project team.
       4) To ensure effective processes are in place to identify all requirements, a User Group
          with a wide background of TE/GE Division expertise has been established for TEDS
          Release 2. The User Group of front-line employees and managers, with additional
          participants providing input on an as-needed basis, is in place. To control the
          process, the TEDS 2 Integrated Project Team has developed and implemented a
          Requirements Management Plan, which includes a Change Control Board imposing
          configuration management via change requests.
Recommendation 2: The Director, Exempt Organizations, should implement processes that
ensure the TEDS Business Case is revised when the changes to the project’s scope occur,
increases in the project’s target completion date are extended by more than 10 percent, or project
costs are increased by more than 10 percent, so the most current information is available to make
informed investment decisions, monitor the progress of the System’s development, and evaluate
whether business benefits are realized.
       Management’s Response: The Commissioner, TE/GE Division, reported that all
       corrective actions for Recommendation 2 have been completed. The Director, Exempt
       Organizations, ensures TEDS Release 2 follows the IRS-wide Enterprise Life Cycle and
       Enterprise Life Cycle-Lite methodology and governance processes to ensure the most
       current information is available to the TE/GE Investment Executive Steering Committee,
       so it can make informed investment decisions and monitor the progress of the System’s
       development and evaluate whether business benefits are realized. As part of this
       oversight, in the last year, the TEDS Release 2 project team has briefed the Director,
       Exempt Organizations, and the Commissioner, TE/GE Division, on a regular basis in
       advance of the monthly review by the TE/GE Investment Executive Steering Committee.
       At both briefings, project activities; accomplishments; risks and issues; and any
       significant cost, schedule, and scope issues that require TE/GE Investment Executive
       Steering Committee review and decision are discussed and evaluated.
Recommendation 3: The Director, Exempt Organizations, should ensure investment
decisions are fully evaluated by adopting a business case model that includes processes for
tracking actual costs of processing the determination applications to compare with the estimated
costs.

                                                                                          Page 13
               The Tax Exempt Determination System Release 1
             Delivered Only a Small Portion of the Expected Benefits
                   and Significantly Exceeded Cost Estimates



Management’s Response: The Commissioner, TE/GE Division, reported that all
corrective actions for Recommendation 3 have been completed. On a weekly basis,
actual costs are tracked and compared against projected estimates for the same time
period. The aggregate weekly actual costs are subsequently verified with the monthly
invoices. This tracking mechanism is being used for all three TEDS Release 2
vendor/contractor teams; it ensures the most accurate financial information is available
for review and management more timely than in TEDS Release 1 and can be effectively
incorporated in any required updates to the TEDS business case.




                                                                                  Page 14
                            The Tax Exempt Determination System Release 1
                          Delivered Only a Small Portion of the Expected Benefits
                                and Significantly Exceeded Cost Estimates



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether implementation of TEDS Release 1
achieved its purpose of improving the TE/GE Division’s processing of Form 5307 and providing
electronic EP determination information to other TE/GE Division programs. To achieve this
objective, we:
I.       Determined what system capabilities were scheduled to be delivered as a result of the
         implementation of TEDS Release 1.
         A. Reviewed the:
                  1. September 9, 2002, and August 12, 2003, Statements of Work and determined
                     the system requirements and deliverables for the design and creation of TEDS
                     Release 1.
                  2. November 14, 2001, TEDS Concept of Operations and determined the
                     conceptual framework of how the System should facilitate the processing of
                     determination applications.
                  3. June 12, 2002, Risk Management Plan1 used to determine the approach,
                     organization, and procedures TE/GE Division management used to detail the
                     processes for identifying, assessing, and controling risk to the TEDS project.
                  4. Results of the May 8, 2003, System Acceptability Testing2 and determined
                     what system requirements were tested, the problems identified during the
                     System Acceptability Testing, and the resolution and nonresolution of
                     problems.
                  5. August 7, 2003, TEDS Business Case and determined what specific
                     performance measures were expected to be delivered.
                  6. May 2004 TEDS Configuration and Change Management Handbook3 and
                     determined the processes and procedures used during development of the


1
  The Risk Management Plan is used to show the TE/GE Division plans to identify, analyze, mitigate, and control
the risks for the TEDS project schedule, costs, and/or technical performance.
2
  This is the process of testing a system or program to ensure it meets the original objectives outlined by the user in
the requirement analysis document.
3
  The Configuration and Change Management Handbook is used to identify, control, and approve changes to system
documentation, custom computer source code, or off-the-shelf software.
                                                                                                             Page 15
                      The Tax Exempt Determination System Release 1
                    Delivered Only a Small Portion of the Expected Benefits
                          and Significantly Exceeded Cost Estimates



                 System to establish and ensure the integrity of TEDS products are maintained
                 throughout the project’s life cycle.
       B. Interviewed TEDS Release 1 team project members and determined what system
          capabilities were scheduled to be delivered with implementation of TEDS Release 1.
       C. Interviewed TE/GE CAS, EP Examination, and EP Determinations Quality
          Assurance Staff management and determined how TEDS Release 1 was to benefit
          their operations.
II.    Determined how TEDS Release 1 system functionality is currently operating by assessing
       the System’s capability compared to the planned functionality in the August 27, 2003,
       TEDS Business Case.
III.   Determined whether TEDS Release 1 is functioning as intended and assessed the impact
       any differences have had on the TE/GE Division’s programs.
       A. Compared the expected TEDS Release 1 system capabilities scheduled to be
          delivered to the actual delivered TEDS Release 1 functionality.
       B. Reviewed the August 7, 2003, TEDS Business Case and determined what impact the
          nondelivery of any TEDS Release 1 functionality has had on the TE/GE Division.
       C. Determined what impact the implementation of TEDS Release 1 has had on other
          TE/GE Division programs by interviewing EP Examination, TE/GE CAS, EP
          Determinations Quality Assurance, and TE/GE Division Business Systems Planning
          management.




                                                                                      Page 16
                      The Tax Exempt Determination System Release 1
                    Delivered Only a Small Portion of the Expected Benefits
                          and Significantly Exceeded Cost Estimates



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
James V. Westcott, Audit Manager
John W. Baxter, Lead Auditor
Laura S. Cooper, Auditor
Donald J. Martineau, Auditor
Marjorie A. Stephenson, Auditor




                                                                                    Page 17
                     The Tax Exempt Determination System Release 1
                   Delivered Only a Small Portion of the Expected Benefits
                         and Significantly Exceeded Cost Estimates



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 18
                          The Tax Exempt Determination System Release 1
                        Delivered Only a Small Portion of the Expected Benefits
                              and Significantly Exceeded Cost Estimates



                                                                                           Appendix IV

                                    Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Reliability of Information – Potential; $2.3 million (see page 9). Total project costs were not
tracked and reported because TE/GE Division management did not have a process in place to
appropriately evaluate investment decisions associated with the development of TEDS Release 1.
As a result, information on the $2.3 million cost overrun was not available for TE/GE Division
management to use in planning, monitoring, and reporting on their investment.

Methodology Used to Measure the Reported Benefit:
We calculated the total estimated TEDS Release 1 project costs through FY 2006 (as of
February 17, 2006) by using the information from the August 7, 2003, TEDS Business Case.
The $14.7 million estimate includes $13,451,068 to implement TEDS Release 1 and $1,200,055
in FYs 2004 through 2006 for contractor labor and other contractor-related costs.
The $17 million cost to implement and maintain TEDS Release 1 includes $12,028,694 spent to
implement the System prior to issuance of the August 7, 2003, TEDS Business Case. The
$17 million also includes $475,053 needed by the TE/GE Division to cover labor and other
related costs to complete implementation of TEDS Release 1 and $4,488,405 in contractor costs
between August 7, 2003, and February 17, 2006. The total cost overrun was determined by
subtracting the estimated cost from the actual cost.
1. Actual cost to implement and maintain TEDS Release 1
   as of February 17, 2006 (see page 11).                                            $17.0 million
2. Estimated TEDS Release 1 project cost through FY 20061
   (see page 11).                                                                    $14.7 million
Total                                                                                 $2.3 million




1
  The estimated TEDS Release 1 project cost is the amount of money in the August 7, 2003, TEDS Business Case
that the TE/GE Division expected to spend to deploy and maintain TEDS Release 1 through FY 2006.
                                                                                                     Page 19
        The Tax Exempt Determination System Release 1
      Delivered Only a Small Portion of the Expected Benefits
            and Significantly Exceeded Cost Estimates



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 20
  The Tax Exempt Determination System Release 1
Delivered Only a Small Portion of the Expected Benefits
      and Significantly Exceeded Cost Estimates




                                                     Page 21
  The Tax Exempt Determination System Release 1
Delivered Only a Small Portion of the Expected Benefits
      and Significantly Exceeded Cost Estimates




                                                     Page 22
  The Tax Exempt Determination System Release 1
Delivered Only a Small Portion of the Expected Benefits
      and Significantly Exceeded Cost Estimates




                                                     Page 23
